No. 19-177

In The
Supreme Court of the United States
UNITED STATES AGENCY FOR INTERNATIONAL
DEVELOPMENT, ET AL.,
Petitioners,

v.
ALLIANCE FOR OPEN SOCIETY
INTERNATIONAL, INC., ET AL.,

Respondents.

On Writ of Certiorari to the United States
Court of Appeals for the Second Circuit

AMICUS BRIEF OF THE AMERICAN
CENTER FOR LAW AND JUSTICE IN
SUPPORT OF PETITIONERS
JAY ALAN SEKULOW
Counsel of Record
STUART J. ROTH
COLBY M. MAY
WALTER M. WEBER
AMERICAN CENTER FOR
LAW & JUSTICE
201 Maryland Ave., N.E.
Washington, DC 20002
(202) 546-8890
sekulow@aclj.org
Counsel for Amicus

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . iii
INTEREST OF AMICUS . . . . . . . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT . . . . . . . . . . . . . . . . . 2
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
I. THE FEDERAL GOVERNMENT HAS
THE POWER TO SET ELIGIBILITY
CRITERIA FOR GRANTEES . . . . . . . . . . . 3
A. There is a Crucial Distinction Between
Permissible Eligibility Criteria and
Unconstitutional Conditions . . . . . . . . . 6
1. The Policy Requirement Is a
Legitimate Eligibility Requirement . 6
2. Eligibility Criteria Define Qualified
Grantees, Not the Program Itself . . 9
3. In the Context of a Discretionary
Grant Program, There Is No
Coherent Distinction between
Selecting Grantees who Support
the Government's Agenda and
“Imposing” such Support
on Grantees . . . . . . . . . . . . . . . . . . . 11

ii
B. Eligibility Criteria for Competitive
Funding of a Discrete, Limited,
Discretionary Program Do Not
Compel Speech . . . . . . . . . . . . . . . . . . . 13
1. The compelled speech doctrine . . . . 13
2. Absence of speech compulsion here . 14
3. Important doctrinal limits . . . . . . . . 15
4. The need to cabin CLS v. Martinez . 16
II. THE POLICY REQUIREMENT IS
CONSTITUTIONAL INDEPENDENT OF
THE “GOVERNMENT SPEECH”
DOCTRINE . . . . . . . . . . . . . . . . . . . . . . . . 19
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

iii
TABLE OF AUTHORITIES
Cases

Page

AID v. AOSI, 570 U.S. 205 (2013) (AID I) . 1, passim
Christian Legal Society v. Martinez,
561 U.S. 661 (2010) . . . . . . . . . . . . . . . . . . 16-18
Democratic Senatorial Comm. v.
FEC, 660 F.2d 773 (D.C. Cir. 1980) . . . . . . . . . 6
FCC v. Fox TV, 132 S. Ct. 2307 (2012) . . . . . . . . . . 1
FCC v. League of Women Voters of Cal.,
468 U.S. 364 (1984) . . . . . . . . . . . . . . . . . . . 7, 11
Legal Servs. Corp. v. Velazquez,
531 U.S. 533 (2001) . . . . . . . . . . . . . . . . . . . . . . 7
Lyng v. Int’l Union, 485 U.S. 360 (1988) . . . . . . . . 15
Matal v. Tam, 137 S. Ct. 1744 (2017) . . . . . . . . . . . . 1
McConnell v. FEC, 540 U.S. 93 (2003) . . . . . . . . . . . 1
NEA v. Finley, 524 U.S. 569 (1998) . . . . . . . . . . 5, 14
Pleasant Grove City v. Summum,
555 U.S. 460 (2009) . . . . . . . . . . . . . . . . . . . 1, 19
Regan v. Taxation With Representation,
416 U.S. 540 (2003) . . . . . . . . . . . . . . . 10, 11, 12

iv
Rumsfeld v. FAIR, 547 U.S. 47 (2006) . . . . . . . . . 6, 7
Rust v. Sullivan, 500 U.S. 173 (1991) . . 7, 11, 12, 19
South Dakota v. Dole, 483 U.S. 203 (1987) . . . . . . 15
Trinity Lutheran Church v. Comer,
137 S. Ct. 2012 (2017) . . . . . . . . . . . . . . . . . . . 14
United States v. Am. Library Ass’n,
539 U.S. 194 (2003) . . . . . . . . . . . . . . . . . . . 7, 15
West Va. Bd. of Educ. v. Barnette,
319 U.S. 624 (1943) . . . . . . . . . . . . . . . . . . . . . 14
Wooley v. Maynard, 430 U.S. 705 (1977) . . . . . . . . 14
Constitutional provisions
U.S. Const. amend. I . . . . . . . . . . . . . . . . . . 2, passim

1
INTEREST OF AMICUS1
The American Center for Law and Justice (ACLJ) is
an organization dedicated to the defense of
constitutional liberties secured by law. ACLJ attorneys
often appear before this Court as counsel either for a
party, e.g., Pleasant Grove City v. Summum, 555 U.S.
460 (2009); McConnell v. FEC, 540 U.S. 93 (2003), or
for amici, e.g., Matal v. Tam, 137 S. Ct. 1744 (2017);
FCC v. Fox TV, 567 U.S. 239 (2012). The ACLJ filed as
amicus when this case was previously before this
Court. AID v. AOSI, 570 U.S. 205 (2013) (AID I).
The ACLJ believes the government has the
authority, within limits, to set eligibility criteria for
grantees to assure that taxpayer funds are used in
ways that are most effective to furthering the goals of
the funding program. In particular, while government
cannot impose “policy loyalty” requirements willy-nilly,
government can categorically prefer to give money to
applicants who formally condemn inherently wrongful
activity – such as prostitution and sex trafficking –
when opposition to those activities is material to the
program at issue. This Court’s prior decision in this
case unfortunately constrained that important
government selection authority and should be
reconsidered.

1

The parties in this case have consented to the filing of this
amicus brief. No counsel for any party authored this brief in whole
or in part. No person or entity aside from amicus, its members, or
its counsel made a monetary contribution to the preparation or
submission of this brief.

2
SUMMARY OF ARGUMENT
The federal government in its brief argues that this
Court’s prior decision in this litigation does not extend
to the subsequent relief granted by the lower courts.
Amicus wishes to go further and explain why this
Court’s divided prior decision, while generally correct
in the principles it articulated, went astray in
important respects. This Court ought not to read the
First Amendment as barring the sort of policy at issue
here at all, for either domestic or foreign grantees.
When selecting among competing applicants for
discretionary funding, government can look to the
relevant qualifications of the applicant to ensure the
effectiveness of a government program. For example,
government could disqualify tobacco merchants from
an anti-smoking campaign, or require a documented
pro-democracy record or policy for applicants to receive
funding in a program to promote democratic principles
and institutions abroad. This is not government
imposition of policies upon private actors; rather, it is
government selection, by transparent means, of the
best suited applicants. Such criteria are not
unconstitutional conditions, but rather qualifications
akin to an individual’s qualifications to carry out a job
(e.g., having a bar license to be a Department of
Justice litigator).
Since the funding at stake here is competitive,
discretionary, and limited to a discrete program, and
because application for such funding is completely
voluntary, the compelled speech doctrine is no bar to
the setting of qualifications for applicants. And while
the “government speech” doctrine does not cover the
policy requirement here – an entity’s policies are its
own speech, not that of the government – the

3
government does not need to fit under that doctrine to
establish legitimate, program-related qualification
criteria for applicants for taxpayer funding.
The government power to attach strings to money is
potent and subject to grave abuse, and this Court
should reaffirm the essential constitutional limits on
that power. In the present case, however, the
challenged policy requirement is no more than a
permissible eligibility qualification for competitive,
discretionary government grants.
ARGUMENT
This Court previously held by a 6-2 vote that the
federal statutory anti-sex trafficking, anti-prostitution
policy requirement at issue in this case, as applied to
domestic grantees, violates the First Amendment. This
Court should reconsider that conclusion, as it depends
upon unworkable line-drawing and propositions that
lack principled limits. The question is whether, when
Congress reallocates U.S. tax money to the programs
and causes of its choice, Congress also can ensure that
those entities accepting federal funds are the ones
most likely to be qualified and effective in carrying out
those programs. The answer to that question must be
“yes,” and anything to the contrary in AID v. AOSI
ought to be revisited.
I.

THE FEDERAL GOVERNMENT HAS
THE POWER TO SET ELIGIBILITY
CRITERIA FOR GRANTEES.

The logic of the constitutionality of the challenged
policy is straightforward. The points are summarized
here, and then elaborated upon infra.

4
1. The government is generally entitled to take a
policy position on an issue (subject to exceptions
not relevant here, such as official adoption of
religious professions in violation of the
Establishment Clause).
2. The government is entitled to set up an
otherwise permissible funding program in a way
consistent with any pertinent policy position.
3. In particular, the government is entitled to give
preference to grantees who have demonstrated
harmony with the government’s policy position.
4. A potential grantee’s adoption or maintenance of
an explicit policy that accords with the
government’s policy position is strong evidence of
harmony with that policy position.
5. If the government is permitted, consistent with
the First Amendment, to prefer potential
grantees who have explicit policies, the
government is likewise permitted exclusively to
prefer such grantees.
6. Requiring grantees to have such a policy to be
eligible for relevant grants is indistinguishable
from giving exclusive preference to such entities;
hence, an express policy requirement is
constitutional.
The power to set up a grant program necessarily
entails the concomitant power to set up a program in
a way that aims to be effective. The federal Spending
Power “includes the authority to impose limits on the
use of [federal] funds to ensure they are used in the
manner Congress intends.” AID I, 570 U.S. at 213. And
ensuring effective use of funds necessarily includes
imposing standards – eligibility criteria – for grant
recipients.

5
One can well imagine how a representative of Big
Tobacco would fare in trying to convince skeptical
teens not to smoke. The purpose of eligibility criteria is
to avoid such fiascos. It only makes sense, therefore, to
say that a group like NORML (opposing bans on
marijuana) has no First Amendment right to insist
upon receipt of grants under a government program to
combat the use of marijuana, and that the Socialist
Party USA similarly has no First Amendment right to
demand inclusion in a program of grants to further free
market capitalism. To be sure, these examples are easy
because the entities have policies that are plainly
incompatible with the government’s adopted policy
position. But the principle extends beyond such easy
cases. Hence, while a group with no relevant policy
might well do a creditable job carrying out the federal
project, Congress is certainly entitled to judge that
those with a demonstrated commitment are more likely
to be dependable and effective in carrying out the
program as Congress designed it.
Congress therefore has the power, within limits, to
establish eligibility criteria, even when those criteria
touch upon an applicant’s speech or viewpoint.
“Government may allocate competitive funding
according to criteria that would be impermissible were
direct regulation of speech or a criminal penalty at
stake.” NEA v. Finley, 524 U.S. 569, 587-88 (1998).
Would-be grantees must then satisfy those criteria in
order to receive taxpayer funding as part of
government programs. And, of course,
if a party objects to a condition on the receipt of
federal funding, its recourse is to decline the funds.
This remains true when the objection is that a
condition may affect the recipient’s exercise of its
First Amendment rights.

6
AID I, 570 U.S. at 214.
The policy requirement at issue here is just such an
instance of government setting permissible eligibility
criteria for competitive funding. If the government is
entitled to adopt the pertinent anti-trafficking, antiprostitution policy viewpoint in the first place – an
undisputed proposition – then the government should
be entitled to prefer, in making funding choices in a
relevant program, those embracing the government’s
policy over those opposing or remaining neutral.
A.

There is a Crucial Distinction
Between Permissible Eligibility
Criteria and Unconstitutional
Conditions.

The “unconstitutional conditions” doctrine does not
invalidate the policy requirement here.
1. The Policy Requirement Is a
Legitimate Eligibility Requirement.
Certainly the government cannot willy-nilly use the
carrot of taxpayer funding to obtain the forfeiture of
constitutional rights. While he who “pays the piper”
generally gets to “call the tune,” Democratic Senatorial
Comm. v. FEC, 660 F.2d 773, 781 (D.C. Cir. 1980) (per
curiam opinion of Wright & GINSBURG, JJ.), this
Court has repeatedly “recognize[d] a limit on Congress’
ability to place conditions on the receipt of funds,”
Rumsfeld v. FAIR, 547 U.S. 47, 59 (2006). In
particular, “‘the government may not deny a benefit to
a person on a basis that infringes his constitutionally
protected . . . freedom of speech even if he has no
entitlement to that benefit.’” Id. (quoting United States

7
v. Am. Library Ass’n, 539 U.S. 194, 210 (2003)
(plurality)). Accord AID I, 570 U.S. at 214 (same). A
number of this Court’s cases exemplify this
“unconstitutional conditions” doctrine. E.g., FCC v.
League of Women Voters of Cal., 468 U.S. 364 (1984);
Legal Servs. Corp. v. Velazquez, 531 U.S. 533 (2001).
That does not mean, however, that Congress must be
indifferent to the qualifications of the applicants for
federal grants. “When Congress established a National
Endowment for Democracy to encourage other
countries to adopt democratic principles, . . ., it was not
constitutionally required to fund a program to
encourage competing lines of political philosophy such
as communism and fascism.” Rust v. Sullivan, 500 U.S.
173, 194 (1991). In the same way, Congress need not
ignore whether applicants for funding under a
government program in fact support the goals they are
expected to promote. An overseas campaign against
abortion can disqualify groups that do or promote
abortions, even on their own time and money, just as
an overseas campaign to increase access to abortion
could presumably disqualify groups that oppose
abortion, even on their own time and money.
Here, the federal program aims to fight the spread
of HIV/AIDS and “Congress found that the ‘sex
industry, the trafficking of individuals into such
industry, and sexual violence’ were factors in the
spread of the HIV/AIDS epidemic.” AID I, 570 U.S. at
209. It is thus perfectly reasonable for the program to
prefer, indeed to insist upon, grantees who expressly
oppose sexually exploitative and irresponsible
activities like prostitution and sex trafficking,
activities that contribute to the spread of the very
pathologies the government program is trying to halt.

8
(The AID I majority did not dispute the relevance of
the policy to the program here.)
Importantly, the constitutionality of the requirement
here would not license the government to impose even
the very same requirement in unrelated contexts.
It would not, for example, permit the Government to
exclude from bidding on defense contracts anyone
who refuses to abjure prostitution. But here a
central part of the Government’s HIV/AIDS strategy
is the suppression of prostitution, by which HIV is
transmitted. It is entirely reasonable to admit to
participation in the program only those who believe
in that goal.
AID I, 570 U.S. at 223 (Scalia, J., dissenting).
An analogy may be helpful. Consider a campaign to
combat teen suicide. Certainly a government could
prefer, when implementing such a program through
private entities, to fund groups with strong, express
policies against all suicides, rather than groups that
favor, or take no position on, suicide for some cases
(like assisted suicide for terminal illness). The
government could rightly judge that an entity’s retreat
in principle from a condemnation of all suicides
weakens its credibility or effectiveness in combating
the scourge of teen suicide.
That said, the unconstitutional conditions doctrine
would not permit the government to condition
unrelated grants, such as grants to assist taxpayers
with IRS filings, or grants for remediation of
environmental degradation, on an express anti-suicide
policy. In such cases, the policy requirement would not
be a related eligibility criterion, but rather an attempt

9
by government to leverage policy agreement through
unrelated funding strings.
Here, the policy requirement supports the
government’s goals. It is not an unrelated measure
gratuitously imposing the government’s favored
position, but rather a germane eligibility standard.
Notably, in both cases – related and unrelated
conditions – “[w]ere it enacted as a direct regulation of
speech, the Policy Requirement would plainly violate
the First Amendment.” AID I, 570 U.S. at 213. But
that observation is not decisive. If it were, the
government could never require, or even prefer,
applicants on a basis that had First Amendment
significance. Indeed, such an approach would
transform the unconstitutional conditions doctrine into
a general ban on any speech-related funding criteria.
The AID I majority did not go so far: “[t]he question is
whether the Government may nonetheless impose that
requirement as a condition on the receipt of federal
funds,” 570 U.S. at 231 – or more specifically, the
receipt of federal funds under this particular program.
As explained above, the answer to that question is
“Yes.”
2. Eligibility Criteria Define Qualified
Grantees, Not the Program Itself.
The AID I majority declared that
the relevant distinction that has emerged from our
cases is between conditions that define the limits of
the government spending program—those that
specify the activities Congress wants to
subsidize—and conditions that seek to leverage

10
funding to regulate speech outside the contours of
the program itself.
570 U.S. at 214-15. That distinction, however, is not
only “hardly clear,” as this Court acknowledged, id. at
215. It is downright inapt.
If the Policy Requirement here “regulate[s] speech
outside the contours of the program itself,” then so
does disqualifying NORML from a government-funded
anti-drug program because of its (First Amendmentprotected) expression. In neither case does the
requirement “specify the activities Congress wants to
subsidize.” Instead, it specifies the criteria Congress
looks for in a qualified grantee. In short, the rule
enunciated by the AID I majority fails to take account
of the difference between unrelated political
correctness tests and legitimate eligibility standards.
Both look to independent First Amendment activities,
but only the former is unconstitutional. The distinction
between “conditions that define the federal program”
and “those that reach outside it” (570 U.S. at 218) is
simply not helpful in identifying the proper First
Amendment boundary when assessing eligibility
criteria.
The cases the AID I majority cited for its purported
distinction, 570 U.S. at 215-16, in fact fully comport
with the distinction between legitimate eligibility
criteria and illegitimate leveraging of political
obeisance. In Regan v. Taxation With Representation,
416 U.S. 540 (2003), eligibility for 501(c)(3) tax
exemption required refraining from (First Amendment
protected) lobbying, and this Court said that was
constitutional. But in FCC v. League of Women Voters
of California, 468 U.S. 364 (1984), this Court ruled
that hinging the funding of “educational broadcasting”

11
on the forswearing of all “editorializing,” id. at 366 –
which this Court said “directly prohibits the
broadcaster from speaking out on public issues even in
a balanced and fair manner,” id. at 385 –
“impermissibly sweeps within its prohibition” a “wide
range of speech by wholly private [entities] on topics
that . . . have nothing whatever to do with” the
relevant government concern, id. at 395. In short, the
condition in Regan imposed relevant eligibility criteria,
while the condition in FCC leveraged an overbroad
surrender of First Amendment rights.2
3. In the Context of a Discretionary
Grant Program, There Is No Coherent
Distinction between Selecting Grantees
who Support the Government’s Agenda
and “Imposing” such Support on
Grantees.
The AID I majority ultimately turned on what it saw
as the difference between “the Government’s ability to
enlist the assistance of those with whom it already
agrees” and “compelling a grant recipient to adopt a
particular belief as a condition of funding,” 570 U.S. at
218.3 But this supposed distinction is no more than a
2

Rust v. Sullivan, 500 U.S. 173 (1991), involved a condition
imposed on an entire project, not just on the use of funds, but this
Court held that the condition properly supported the government’s
desired focus in its funding program. It thus qualified as a
legitimate selection criterion.
3

That the condition is “ongoing” and “a ground for terminating
a grant,” id. at 218, is makeweight. The same could be said of the
non-lobbying restriction in Regan, the bar on abortion counseling
in Rust, or for that matter, such unobjectionable conditions as

12
semantic recharacterization of two sides of the same
coin. Consider the following:
Case A. The government states it prefers those with
express anti-smoking policies as grantees for an antismoking campaign. Constitutional? Of course! To be
sure, when the government announces such a
preference, this creates an incentive to adopt the
characteristics that will boost the chance of a
successful application for funding. Such an incentive is
not compulsion, however, as no one is compelled to
apply for the grant. Nor is the incentive to meet the
criteria an improper “unconstitutional condition,” so
long as the criteria legitimately relate to the
effectiveness of the program.
Case B. The government states it prefers those with
express anti-smoking policies and that it will await
such a grantee before awarding any funds. It is hard to
see how this is materially different from Case A. The
consequence is that only those with the preferred
policy will be funded, but so what? There is still no
compulsion or unconstitutional condition.
Case C. The government announces that only those
with an express anti-smoking policy will be considered
for funding in an anti-smoking campaign.
Constitutional? Case C is indistinguishable from Case
B, except in its greater forthrightness and
transparency about the importance of having the
express policy. If Case C violates the First Amendment,
then it is hard to see how Case B does not. Which in
turn makes it hard to see how Case A would be
permissible. But if Case A is unconstitutional, then the

maintaining any required licensing and insurance.

13
government cannot set any eligibility standards for
grantees that touch upon First Amendment activities.
The present case, of course, is Case C. The
government has frankly identified a level of
commitment to have to the government’s mission that
it expects of grantees. That the relevant commitment
is demonstrated by speech does not make it any less
powerful an indicator of harmony with the
government’s goals.
The AID I majority noted that adopting a policy
would have implications for the policyholder’s ability to
utter incompatible messages:
A recipient cannot avow the belief dictated by the
Policy Requirement when spending Leadership Act
funds, and then turn around and assert a contrary
belief, or claim neutrality, when participating in
activities on its own time and dime.
570 U.S. at 218. This is true, but all it means is that
the grantee must be honest when it adopts the policy.
This is a good thing, not a strike against the
requirement.
B. Eligibility Criteria for Competitive
Funding of a Discrete, Limited,
Discretionary Program Do Not
Compel Speech.
The compelled speech doctrine does not require a
different result.
1. The compelled speech doctrine
To be sure, the government violates the First
Amendment when it coerces involuntary speech from
a private party, for example when the government

14
extracts statements of points of view on ideologically
contested issues. Wooley v. Maynard, 430 U.S. 705
(1977). And, of course, coercion need not come in the
form of a gun to the head. Government may not
“leverage . . . subsidies . . . into a penalty on disfavored
viewpoints,” NEA v. Finley, 524 U.S. at 587. Where the
government denies generally available public benefits
because the target declines to adopt a particular policy
– e.g., no welfare benefits to those who do not profess
to support the idea of reducing the federal budget, or
no access to a forum for speech by those who refuse to
take the position that all religions are equally valid –
this blatantly infringes upon the First Amendment
right to free speech (and freedom of thought as well).
The government cannot make ideological conformity
the price of the incidents of citizenship. “Authority here
is to be controlled by public opinion, not public opinion
by authority.” West Va. Bd. of Educ. v. Barnette, 319
U.S. 624, 641 (1943). “If there is any fixed star in our
constitutional constellation, it is that no official, high
or petty, can prescribe what shall be orthodox in
politics, nationalism, religion, or other matters of
opinion or force citizens to confess by word or act their
faith therein.” Id. Accord AID I, 570 U.S. at 220-21.
2. Absence of speech compulsion here
Here, however, the government requires no speech
at all – application for grants is purely voluntary. Nor
does the government engage in indirect coercion, for
example by imposing conditions upon generally
available public benefits like use of a park or highway,
receipt of medical safety net coverage, professional
license acquisition, or admission to state schools or
their programs. Compare Trinity Lutheran Church v.

15
Comer, 137 S. Ct. 2012 (2017) (forbidding churches
from participation in recycled tire resurfacing
program). As in the striker/food stamps case, Lyng v.
Int’l Union, 485 U.S. 360 (1988), the government has
merely adopted rules that exclusively prefer certain
applicants – in Lyng, individuals who are not on strike;
here, entities that declare opposition to prostitution
and sex trafficking – for eligibility to receive certain
government funds. Just as it was permissible for the
government to require libraries to adopt Internet
filters in order to receive certain government funding,
Amer. Library Ass’n, so here it is permissible for the
government exclusively to prefer entities with a policy
against prostitution and sex trafficking when
disbursing funding to combat the very ills these
behaviors help propagate.
3. Important doctrinal limits
It is important to emphasize the limited nature of
the government power to attach conditions to funding.
In addition to the First Amendment principles
discussed elsewhere in this brief, funding conditions
must at a minimum be related to the legitimate
government interests that the program is intended to
further. South Dakota v. Dole, 483 U.S. 203, 207-08
(1987). Excluding entities from federal funding
programs just because they decline to espouse a
particular viewpoint, regardless of the lack of a
connection to the purposes of the particular program at
issue, would fail this threshold test and thus
unconstitutionally penalize those entities for their
speech (or refusal to speak).
More generally, there is a difference in kind
between, on the one hand, the setting of eligibility

16
criteria in a discretionary program affecting a small,
voluntary pool of applicants, where the eligibility
criteria tie directly to the program at issue, and on the
other hand, the imposition of policy-linked disqualifiers
upon an entire subset of the population, or upon the
receipt of common or universally available benefits, or
upon the disbursement of benefits having no obvious
connection to the program at issue. Discretionary
funding for overseas programs, for example, is not the
same as entitlement to a child tax credit. Setting
criteria for a small set of NGO’s seeking program
grants is materially distinct from imposing speechlinked requirements on parents wishing to send their
children to public schools. And hinging funding for the
fight against sexually transmitted diseases upon a
policy against sexually irresponsible behavior is
different in principle from requiring public fealty to,
say, same-sex marriage as a condition of receiving a
business license.
4. The need to cabin CLS v. Martinez
One decision of this Court would appear to
undermine these crucial limiting principles – Christian
Legal Society v. Martinez, 561 U.S. 661 (2010) – but
that case should not control the analysis going forward,
either because it should be limited to its facts or
because it should be repudiated.
In CLS, a government entity imposed the
requirement that, as a condition of the benefits
available to student clubs, every club must adopt a
policy of indifferentism regarding religion and sexual
behavior. Id. at 669-73. In other words, student groups
were relegated to second-class status unless they in
effect professed that a member’s religious beliefs were

17
irrelevant to the identity and effectiveness of a
religious club, and that one’s departure from
traditional Christian sexual norms – and the
consequent scandal – was irrelevant to the mission
integrity of a Christian group.
Contrary to the principles described above, the
policy requirement in CLS was not limited to
participation in a particular, discretionary program –
e.g., a student workcamp project aimed at helping
AIDS victims. Nor was the requirement limited to a
small subset of the population – e.g., those applying for
an assistantship position in the “diversity office” or
campus chaplaincy. Instead, the rule was imposed
upon the entire relevant universe – all students
attending the state law school – as a condition of a
standard, generally available benefit – forming a
recognized club. Furthermore, the requirement was not
directly linked to the program at issue: a policy on
religion or sexual behavior generally has nothing to do
with student club activities (e.g., playing chess), and
where such a policy might be relevant, it could as
easily be completely counterproductive, indeed
nonsensical – e.g., forcing a Jewish club to allow
Muslim or Christian officers.
To the extent that CLS stands for the proposition
that the above-described essential limits on
governmental power to impose ideological strings on
benefits are in fact no limits at all, it should be
overruled. To the extent that CLS says a government
body can extract a pledge of submission to a currently
regnant ideology or else impose second-class status
upon the population it governs, the CLS decision is
deeply and fundamentally inconsistent with liberty in
general and free speech in particular, and should be
overruled.

18
At a minimum, CLS must be read as limited to its
peculiar facts. The CLS Court observed that, while a
Christian group bizarrely had to agree that its officers
need not be Christian and need not profess to follow
Christian norms, such a group could nevertheless
adopt “generally applicable membership requirements
unrelated to status or beliefs.” Id. at 2979 n.2 (internal
quotation marks omitted). If these permissible “goodbehavior,” “attendance, [and] skill measurements”
requirements, id., allow a club to maintain its identity
and integrity – e.g., by treating profound ignorance or
disregard of the club’s Christianity-derived norms as a
disqualifier – then CLS would stand only for the
dangerous, but more narrow, proposition that clubs
must profess indifference to their identity but may
nevertheless maintain mission coherence through
conduct and skill requirements.
In sum, if CLS is taken at face value, the present
case is easy indeed. Obviously, if a government body
can relegate to second-class status those who do not
profess adherence to a deeply controversial policy
position, even in the context of access to a speech
forum, then a fortiori the government can require
espousal of a policy condemning activities traditionally
regarded as evil, as a condition of receipt of special
discretionary funding in a program addressing the
consequences of that evil. But because CLS is so
profoundly inconsistent with broader, preexisting First
Amendment principles – principles CLS did not
purport to overturn – this Court should not rely upon
CLS here, but rather should disavow its pernicious
holding (or at least ignore it, as AID I did).
In any event, the government does not need CLS to
prevail in this case.

19
II.

THE POLICY REQUIREMENT IS CONSTITUTIONAL INDEPENDENT OF THE
“GOVERNMENT SPEECH” DOCTRINE.

Nor does the government need the “government
speech” doctrine to prevail here. While that doctrine
bolsters the government’s ability to oppose sex
trafficking and prostitution, the grantees need not be
deemed government speakers to uphold the policy here.
“The Free Speech Clause restricts government
regulation of private speech; it does not regulate
government speech.” Pleasant Grove City v. Summum,
555 U.S. 460, 467 (2009). Here, however, any
anti-prostitution and anti-sex trafficking policy of
grantees is not government speech, but rather a policy
the grantee itself adopts. Nor is this a case where the
government is dictating the parameters of an entity’s
speech within the four corners of the government
program, as in Rust v. Sullivan, 500 U.S. 173 (1991).
Hence, the “government speech” doctrine is not
controlling here.
The government speech doctrine, however, does not
exhaust the government’s authority to set rules for
grantees. The government can constitutionally require
that a grantee, for example, be a tax-exempt entity, or
certify its compliance with workplace safety
obligations, or have the necessary plant facilities to
complete a certain government project. Eligibility
criteria of these sorts are part and parcel of the
government’s ability to negotiate work bids, or allocate
competitive grants. And as already discussed, supra §
I, the policy requirement here is a permissible
eligibility requirement.

20
CONCLUSION
The statutory requirement that grantees have an
express policy against sex trafficking and prostitution
is “nothing more than a means of selecting suitable
agents to implement the Government’s chosen
strategy.” AID I, 570 U.S. at 221 (Scalia, J.,
dissenting). As such, the requirement does not violate
the First Amendment as to foreign or domestic entities.
This Court should reverse the judgment of the Second
Circuit.
Respectfully submitted,
Jay Alan Sekulow
Counsel of Record
Stuart J. Roth
Colby M. May
Walter M. Weber
American Center for
Law & Justice
201 Maryland Ave., N.E.
Washington, DC 20002
(202) 546-8890
sekulow@aclj.org
Feb. 3, 2020

Counsel for Amicus Curiae

